Office of Inspector General

U.S. Department of Labor




                        FOLLOWUP OF PRIOR
                     AUDIT AND EVALUATION OF
                          THE BUREAU OF
                   INTERNATIONAL LABOR AFFAIRS




        Fiscal Years Ended September 30, 2001 and September 30, 2002




                                            Report Number: 21-03-002-01-070

                                            Date Issued:     March 4, 2003
ILAB Followup Report

                                            TABLE OF CONTENTS
                                                                                                                        Page

ACRONYMS...................................................................................................................i

EXECUTIVE SUMMARY ............................................................................................1

INTRODUCTION AND BACKGROUND...................................................................4

OBJECTIVE, SCOPE AND METHODOLOGY………………………………….. ..5

FOLLOWUP ON PRIOR AUDIT AND EVALUATION ........................................... 6

I.     STATUS OF AUDIT RECOMMENDATIONS.................................................. 6

       1.     Mission Statement ............................................................................................ 6

       2.     Strategic and Performance Plans ...................................................................... 6

       3.     Managerial Controls ......................................................................................... 7

              •      ILAB’s New Automated Activity Tracking System
                     Lacks Basic Internal Controls ...................................................................8

              •      Current Controls over ILAB’s Budget Monitoring
                     and Reporting Need Improvement…………………………………..….10

              •      Two-Year Funding Authority For The Child Labor and Office of
                     Foreign Relations Programs Would Provide For Better Control….…....13

II.    STATUS OF EVALUATION RECOMMENDATIONS.……………….…....16

       1.     Project Planning……………………………………………………….…….16

       2.     Project Goals, Objectives and Indicators……………………………….…...17

       3.     Project Inspection Allegations………………………………………….…...18

       4.     Project Sustainability……………………………………………….……….19

       5.     Review of Project Documents…………………………………….………...20

ILAB’S BUDGET AND STAFFING LEVELS…………………………….……….21

AGENCY RESPONSE……………………..….…………………………….……….22


USDOL/OIG Audit Report No. 21-03-002-01-070
ILAB Followup Report


                                 ACRONYMS

ATS         Activity Tracking System

CFR         Code of Federal Regulation

CL          Child Labor

CSEC        Commercial Sexual Exploitation of Children

DOL         U.S. Department of Labor

DOLAR$      Department of Labor Accounting and Reporting Systems

DUS         Office of the Deputy Under Secretary

EI          Child Labor Education Initiative

GPRA        Government Performance and Results Act of 1993

ICLP        International Child Labor Program

ILAB        Bureau of International Labor Affairs

IPEC        International Program on the Elimination of Child Labor

ILO         International Labor Organization

OFR         Office of Foreign Relations

OIG         Office of Inspector General, U.S. Department of Labor

SPIF        Strategic Program Impact Framework




USDOL/OIG Audit Report No. 21-03-002-01-070                           i
ILAB Followup Report

                               EXECUTIVE SUMMARY

This report presents the results of our followup audit of the implementation of
recommendations in prior OIG audit and evaluation reports (OIG Report No.
17-00-008-01-070, Review of the Bureau of International Labor Affairs, issued
March 20, 2000, and Report No. 2E-01-070-0001, Evaluation of Program
Implementation of ILAB’s Child Labor Projects FYs 1995-2000, issued September 28,
2000). As summarized in the OIG’s semiannual report to the Congress for the period
April 1, 2001 to September 30, 2001:

      The OIG’s evaluation and audit work raised concerns over ILAB’s
      management structure, managerial controls over grant programs, program
      results, evaluation methods, and the roles and responsibilities of individual
      staff to account for this increased level of funding adequately.

The objective of our current audit was to determine whether ILAB satisfactorily
implemented recommendations made in prior OIG audit and evaluation reports.

We found ILAB, in response to prior OIG audit and evaluation recommendations, had:
(1) established and was following written procedures regarding project management;
(2) established managerial controls over its projects; and (3) implemented improvements
to project planning, project sustainability, and the process for inspecting project
allegations. As a result, with two exceptions, the recommendations from our prior audit
and evaluation reports are closed. Our followup audit also identified three additional
areas needing ILAB management’s attention.

TWO RECOMMENDATIONS REMAIN OPEN

Our prior audit recommended that ILAB’s mission statement and strategic and
performance plans be revised. Shortly after the issuance of our report, the Secretary of
Labor announced that ILAB’s mission would change and the President’s FY 2003 budget
proposed reducing ILAB’s budget by $93 million and 40 FTE. The budget proposes
returning ILAB to formulating U.S. international policies, with few or no technical
assistance responsibilities. Since ILAB’s mission may change significantly, the
recommendations that ILAB revise its (1) mission statement to focus on outcomes, and
(2) strategic and performance plans to include goals and measures that better represent its
responsibilities, will remain open until ILAB makes changes to these documents if
necessary based on the mission as it exists after passage of the FY 2003 budget.

Agency Response and Auditor Conclusion

ILAB agreed with our determination. To close the finding, ILAB needs to provide OIG
with its new mission statement and strategic and performance plans after the passage of
the FY 2003 budget




USDOL/OIG Audit Report No. 21-03-002-01-070                                               1
ILAB Followup Report

THREE ADDITIONAL AREAS NEED ATTENTION

We identified three additional areas that ILAB and the Department need to address.

1. ILAB’s new automated Activity Tracking System lacks basic internal controls.

According to ILAB, the Department’s core financial management system (DOLAR$) did
not have the flexibility to meet ILAB’s needs. ILAB developed an automated Activity
Tracking System (ATS) to assist in project management. However, we found that
ILAB’s ATS lacked basic internal controls necessary for financial management
information systems. While ILAB has made many improvements in controls, the
development of an automated system has added the need for additional controls not
originally discussed in our prior reports.

Recommendation

We recommend the Deputy Under Secretary ensure the new system is periodically (e.g.,
monthly) reconciled to DOLAR$ and internal controls and system security are addressed.

Agency Response

ILAB has had initial discussions with the contractor and plans to have these internal
controls in place within the next year.

Auditor Conclusion

We agree with the ILAB’s response and consider the finding resolved. To close the
finding, ILAB needs to provide OIG with proof that the new controls have been
implemented.

2. Current controls over ILAB’s budget monitoring and reporting need
improvement.

ILAB and the Office of Assistant Secretary for Administration and Management
(OASAM) currently share ILAB’s monthly budget management process. The current
process does not provide adequate controls to ensure ILAB obligations are within
available resource limits. The lack of adequate controls and communication between
OASAM and ILAB over the budget information led to a potential budget over obligation
not being identified until late in September 2002. If this situation had not been caught,
the Department could have been in violation of the Anti- Deficiency Act.




USDOL/OIG Audit Report No. 21-03-002-01-070                                                 2
ILAB Followup Report

Recommendations

We recommend that OASAM and ILAB: define the responsibilities and expectations for
each agency in relation to recording and reporting ILAB budget activity; incorporate that
understanding in the MOU; ensure all ILAB personnel responsible for budget execution
and monitoring are trained in Federal budgetary functions and terminology; and meet
regularly to review budget reports.

Agency Response

ILAB has met with OASAM to establish a regular meeting schedule and develop
procedures that will provide the detailed information needed to track budgetary and other
financial information throughout the year.

Auditor Conclusion

We agree with the ILAB’s response and consider the finding resolved. To close the
finding, ILAB needs to provide OIG with proof that the new procedures have been
implemented.

3. Two -year funding authority for the Child Labor and Office of Foreign Relations
programs would provide for better control.

Except for the Education Initiative appropriation within the Child Labor Program, which
has 2- year obligational authority, all other ILAB programs have 1- year obligational
authority. However, due to a lengthy project planning and coordination process, ILAB
had not obligated the majority of its FY 2002 Child Labor appropriation or its Office of
Foreign Relations appropriation as of July 2002.

Recommendation

We recommend that ILAB seek 2-year funding authority for all technical assistance
programs.

Agency Response

ILAB agreed with the need for 2-year funding and intends to address this issue in the
coming year.

Auditor Conclusion

We agree with the ILAB’s response and consider the finding resolved. To close the
finding, ILAB needs to provide OIG with proof that 2-year funding authority has been
implemented.




USDOL/OIG Audit Report No. 21-03-002-01-070                                                3
ILAB Followup Report


                  INTRODUCTION AND BACKGROUND

The Bureau of International Labor Affairs (ILAB) carries out the Secretary of Labor’s
international responsibilities, develops departmental policies and programs related to
international labor activities, and coordinates departmental international activities
involving other U.S. Government agencies, intergovernmental organizations, and
nongovernmental organizations.

ILAB received funding of $148 million in both FY 2001 and 2002, which was more than
double the $70 million received in FY 2000. In addition, staffing levels were increased
from 85 to 125, although only 96 positions were filled for FYs 2001 and 2002. Much of
the increase had been appropriated for a program to combat exploitative child labor. In
FY 2003, DOL proposed ILAB’s budget at $54.6 million and 85 FTE.

The International Child Labor Program (ICLP) and the Office of Foreign Relations
(OFR) are the only two ILAB offices with funding and management responsibilities for
technical assistance projects.

In FY 2000, the OIG conducted an audit and an evaluation and reported the results in:

       -       Review of The Bureau Of International Labor Affairs, OIG Report No.
               17-00-008-01-070

       -       Evaluation of Program Implementation of ILAB’s Child Labor Projects
               FYs 1995-2000, OIG Report No. 2E-01-070-0001

The OIG expressed concern that ILAB did not have adequate program management
systems in place to ensure accountability for the increase in funding. The audit report
and the evaluation report contained four and five recommendations, respectively.

This report discusses the action taken by ILAB to address the recommendations and to
ensure that ILAB programs are effectively managed.




USDOL/OIG Audit Report No. 21-03-002-01-070                                               4
ILAB Followup Report


              OBJECTIVE, SCOPE AND METHODOLOGY

Objective

The objective of our audit was to determine whether ILAB had satisfactorily
implemented recommendations in prior OIG audit and evaluation reports.

Scope and Methodology

Our audit period encompassed activity that occurred during FYs 2001 and 2002. Our
fieldwork was conducted during the period November 2001 and November 2002.

The scope included (1) review of prior audit and evaluation reports; (2) review of ILAB’s
reports to Congress on Child Labor (CL); (3) review of International Labor Organization
(ILO) reports on CL; (4) interviews of ILAB managers and staff; (5) interviews of
OASAM personnel (6); analysis of documentation supporting ILAB’s general
management, grant and contract management, and financial management control
procedures; (7) analysis of the Activity Tracking System controls; and (8) analysis of
documentation supporting ILAB’s efforts to comply with the Government Performance
and Results Act of 1993 (GPRA).

We analyzed documentation that supported five ICLP projects and a recent project
approved by ILAB’s ICLP, and four projects and one supporting contract managed by the
OFR. We judgmentally selected the projects to view the various stages of
implementation and examples of management controls being used.

Our audit included consideration of management controls related to ILAB’s grant and
contract approval and implementatio n and the financial management of grants and
contracts. We also considered controls over the budget monitoring process. Our audit
did not include consideration of controls over the general operations of ILAB, such as
payroll and other administrative policies and procedures.

We conducted our followup audit in accordance with Government Auditing Standards
issued by the Comptroller General of the United States.




USDOL/OIG Audit Report No. 21-03-002-01-070                                              5
ILAB Followup Report


          FOLLOWUP ON PRIOR AUDIT AND EVALUATION
                    RECOMMENDATIONS

STATUS OF AUDIT RECOMMENDATIONS

ILAB has addressed the four recommendations, one each on the mission statement and
strategic and performance plans, and two on managerial controls, in OIG Report No. 17-
00-008-01-070, Review of the Bureau of International Labor Affairs, issued March 24,
2000.

Our prior audit recommended that ILAB’s mission statement and strategic and
performance plans be revised. Shortly after the issuance of our report, the Secretary
announced that ILAB’s mission would change and the President’s FY 2003 budget would
propose reducing ILAB’s budget by $93 million and 40 FTE. The budget proposed
returning ILAB to formulating U.S. international policies, with few or no technical
assistance responsibilities. The prior audit further noted that ILAB’s management
structure, managerial controls, evaluation methods, and the roles and responsibilities of
individual staff were not designed to provide adequate accountability for an increased
funding level

1.     Mission Statement

According to the prior audit report, the existing mission statement for ILAB was process-
oriented and did not focus, on the intended and expected outcomes resulting from ILAB
operations. The auditors recommended that the existing mission statement be revised to
focus on the outcomes expected to result from ILAB operations.

2.     Strategic and Performance Plans

According to the prior audit report, the goals and measures contained in ILAB’s strategic
and performance plans did not adequately represent the many functions that ILAB
performed or the full complement of respons ibilities that ILAB had. The auditors
recommended that ILAB’s strategic and performance plans be revised to include
additional goals and measures that better represent the wide variety of responsibilities
that ILAB has and the many functions that it performs.

We found that only minor revisions had been made to ILAB’s mission statement,
strategic and performance plans, and performance measures. However, shortly after our
report was issued, the Secretary of Labor announced that ILAB’s mission would change.
The President’s FY 2003 budget request proposes “..… returning ILAB to its core
mission to assist in formulating the U.S. international policies and programs of concern to
American workers.”

If ILAB is to function as a policy organization, with few or no technical assistance
responsibilities, its mission will change significantly. Therefore, any revisions to ILAB’s


USDOL/OIG Audit Report No. 21-03-002-01-070                                               6
ILAB Followup Report

mission statement, strategic and performance plans and performance measures should not
be made until after the FY 2003 budget is finalized.

Conclusion

These recommendations remain open, pending our review of changes made to ILAB’s
mission statement and strategic and performance plans in response to the FY 2003 budget
provisions.

Agency Response and Auditor Conclusion

ILAB agreed with our determination. To close the finding, ILAB needs to provide OIG
with its new mission statement and strategic and performance plans after the passage of
the FY 2003 budget

3.     Managerial Controls

According to the prior audit report, appropriations for ILAB activities increased almost
sevenfold during the last 2 fiscal years. ILAB was now responsible for administering
substantially larger amounts of grant/contract funds and for managing additional new
grant activities. ILAB’s management structure, managerial controls, evaluation methods,
and the roles and responsibilities of individual staff were not designed to provide
adequate accountability for the current level of funding. In the report the auditors
recommended that:

       ILAB management determine how the increased grant and contracting activities
       will be accomplished and, specifically, who in ILAB will accomplish each aspect
       of the process. The revised policies, procedures, methods and individual
       responsibilities, when determined, should be put in writing and distributed to all
       applicable staff.

       ILAB review, revise and strengthen its managerial controls over grant/
       contracting activities.

We found ILAB had implemented a number of managerial controls. Both ICLP and OFR
have developed procedures and operations manuals, and conducted training in grant and
contract management. In addition, ILAB has entered into Memorandum of
Understanding with DOL’s Office of the Assistant Secretary for Administration and
Management to obtain assistance with accounting and procurement responsibilities.




USDOL/OIG Audit Report No. 21-03-002-01-070                                                 7
ILAB Followup Report

ILAB management told us that the Department’s core financial management system,
DOLAR$, did not have the flexibility to meet their needs. In the absence of an
automated system that consolidates all of ILAB’s project costs, the Office of the Deputy
Under Secretary developed and implemented a centralized manual system for financial
management of ILAB projects. According to ILAB management, this approach has
resulted in reduced travel costs, as well as better communication, coordination and cross-
training.

During our review of five ICLP projects and a recent project approved by ICLP, and four
projects and one supporting contract managed by the OFR, we found ILAB followed its
procedures manual. Therefore, the two recommendations on managerial controls in the
prior audit are considered closed.

    ADDITIONAL AREAS IDENTIFIED DURING OUR FOLLOWUP AUDIT

1. ILAB’s New Automated Activity Tracking System Lacks Basic Internal Controls

In September 2000, ILAB contracted with International Consulting Solutions and NCI
Systems Inc., to develop an automated Activity Tracking System (ATS) to assist in
project management.

During our audit, we were told by the Office of the Deputy Under Secretary and OFR
management personnel that the OCFO and OASAM could not provide needed
management information from DOLAR$ that would be reliable, timely, and at the detail
level needed by managers in their day-to-day operations. ATS was designed to provide
program managers a more effective tool to track expenditures against obligations and
result in more real time information on account balances. OFR began using this system
in July 2002, and ICLP plans to use this system in the future.

However, we found that ILAB’s ATS lacked basic internal controls necessary for
financial management information systems. For example:

   -     Although financial data must be extracted and manually input into the system
         from project and contract files and DOLAR$, reconciliation procedures had not
         been developed to ensure the transactions in this system match transactions in
         DOLAR$.

   -     Input of transactions and modifications or changes are not tracked in such a way
         that the person entering data is identified. The system’s logging access feature,
         which had not been activated, would provide needed audit trails to those
         entering or changing data in the system.

   -     Subsequent reviews of system data by other ILAB personnel, that would
         identify errors, are not performed.




USDOL/OIG Audit Report No. 21-03-002-01-070                                              8
ILAB Followup Report

   -     The invoice logs allow for recording the date received, project manager
         approval, date sent to financial services, and date invoices were paid, but this
         information is considered optional and not normally completed.

   -     Use of the ATS is not mandatory. By not requiring all managers to use the
         system, its usefulness to ILAB’s overall management process is diminished.

   -     User IDs and passwords are not sufficiently complex (e.g., requiring a
         combination of letters and numbers, or a minimum password length) and there
         is no requirement to periodically change a user’s password.

   -     System backup is maintained at the host facility (International Consulting
         Solutions) with no off- site storage requirements.

ILAB management stated that before the development of the system, the OCFO told them
that the system should not be considered a financial management system. Therefore, they
concluded the system would not be subject to review and certification by the Office of
the Chief Information Officer (OCIO) or require controls associated with a Federal
financial management system. However, in our opinion, since ILAB’s managers may
use the information contained in this system to make project management decisions, the
system should contain adequate controls and conform to sound business practices.

The ATS includes information that is outdated, and several projects included in the
system have incomplete data that results in expenditures in excess of obligations. Until
the system is required to be used by all managers, and consistently and timely updated, it
cannot provide the management assurance needed by ILAB to ensure managers’
decisions are always based on valid and current data.

Conclusion

While ILAB has made many improvements in management controls since our last audit
and evaluation, the development of an automated system has created the need for
additional controls not originally discussed in our prior reports. Therefore, the
recommendations in the prior audit are considered closed and we are providing the
following recommendations.

Recommendation

We recommend that ILAB’s Deputy Under Secretary ensure that:

   -     Reconciliation with the DOLAR$ is accomplished and maintained on a
         continuing basis.

   -     The ATS is updated to include appropriate internal controls and system security.




USDOL/OIG Audit Report No. 21-03-002-01-070                                                 9
ILAB Followup Report

   -     The system is reviewed by the Department’s OCFO for financial management
         information system requirements and by the OCIO to determine compliance
         with the Department’s system implementation requirements

   -     The system is designated a mandatory system for all ILAB managers.

Agency Response

ILAB has had initial discussions with the contractor and plans to have these internal
controls in place within the next year.

Auditor Conclusion

We agree with the ILAB’s response and consider the finding resolved. To close the
finding, ILAB needs to provide OIG with proof that the new controls have been
implemented.

2. Current Controls Over ILAB’s Budget Monitoring and Reporting Need
Improvement

The Bureau of International Labor Affairs’ (ILAB) and Office of Assistant Secretary for
Administration and Management’s (OASAM) monthly budget management process does
not provide adequate controls and procedures to ensure agency obligations are within
available resource limits. Specifically:

   •   The Memorandum of Understanding between the OASAM and ILAB dated
       April 25, 2000, provides responsibilities each agency has related to grant and
       contract program management and technical assistance, but does not specifically
       address the responsibilities each has in relation to a timely budget monitoring
       process.

   •   An informal agreement reached by OASAM and ILAB in the early 1990s
       included understandings of how various budget line items were to be considered
       in the reports provided by OASAM; however, ILAB’s current management was
       not aware of this understanding.

   •   The reports generated by OASAM on actual ILAB obligations and expenditures
       do not provide ILAB’s management needed details of expenditures and
       obligations to effectively evaluate its budget status. In addition, monthly
       communications between OASAM budget personnel and ILAB management
       related to estimations of total obligations is not sufficient to overcome the report
       deficiencies.




USDOL/OIG Audit Report No. 21-03-002-01-070                                               10
ILAB Followup Report


   •   Potential over obligations against ILAB’s budget were not discovered by
       OASAM or ILAB personnel until late in the fiscal year, and resulted in ILAB
       management having to reduce program funding for five OFR grants in September
       2002, in order to avoid an Anti- Deficiency Act violation.

ILAB management’s understanding of the relationship between ILAB and OASAM was
that the responsibility for providing official reporting/monitoring of ILAB budgets,
obligations, and balances was transferred to OASAM in the early1990s, through the
dissolution of ILAB’s administrative function and the integration of those functions into
OASAM. OASAM personnel concurred that the responsibility for developing annual
budget estimates, monitoring spending throughout the fiscal year, and providing ILAB
advice on whether funding is available, is an OASAM responsibility. However, due to
changes in the two agencies’ leadership and staffing over the years, there is no longer a
common understanding of ILAB’s needs and the level of information OASAM provides,
such as the level of detail needed for effective project and budget management. In
addition, because of the extended time frame needed for ILAB’s program and project
development and obligations, information that would be useful for OASAM’s budget
estimates and projections is not available until late in the fiscal year.

The delay in obligations related to ILAB programs, along with a lack of adequate
communication of budget information between OASAM and ILAB, led to a potential
budget over obligation not being identified until late in September 2002. The information
included in OASAM’s preliminary report for August 2002, titled “Departmental
Management FY 2002 Projections 10/1/01 – 09/30/02,” shows ILAB programs with a
projected $1.9 million deficit. However, the report also projects a $2.0 million surplus
for administrative costs, capital improvements, supplies, and materials. This was the
basis for ILAB management’s conclusion that program costs would be covered. For the
same month, OASAM’s report titled “FY 2002 Obligations by Program” shows
administrative costs projections with a $1.8 million deficit.

If this over obligation had not been caught, the Department could have been in violation
of the Anti-Deficiency Act. This condition, along with information not being available
from the core financial system on a time frame and at a detail level needed by ILAB
program personnel, has resulted in ILAB management losing confidence in the reports
and information provided by OASAM.

Conclusion

Monthly budget monitoring and reporting of ILAB activity does not provide ILAB
management with information needed to effectively manage its budget. Since the
responsibility for this process is shared by OASAM and ILAB, we are making the
following recommendations related to each agency’s role in the process.




USDOL/OIG Audit Report No. 21-03-002-01-070                                            11
ILAB Followup Report

Recommendations

We recommend that the Assistant Secretary for Administration and Management ensure
that the Departmental Budget Center:

   -     Works with ILAB management to define the responsibilities and expectation for
         each agency in relation to recording and reporting ILAB budget activity and
         incorporate that understanding into the Memorandum of Understanding between
         the two agencies.

   -     Develops an estimation and projection methodology that is approved by ILAB
         management.

   -     Ensures that monthly reports provided to ILAB are consistent between reports
         and sufficiently explained through additional narratives that highlight unusual
         budget balances and budget projections.

   -     Continues to work with ILAB and OCFO to develop object classes that will
         provide coding at a level needed by ILAB to properly manage program and
         projects within programs.

   -     Ensures personnel responsible for recording and reporting ILAB transactions
         review the nine special reports developed by the OCFO for ILAB transaction
         reporting and include relevant reports in the monthly report development
         process.

   -     Works with ILAB manage ment to reconcile information in DOLAR$ to the
         information included in ATS on a regular basis.

We also recommend that the Deputy Under Secretary for the Bureau of International
Labor Affairs:

   -     Develops and documents procedures that will ensure all ILAB personnel
         responsible for budget execution and monitoring are trained in Federal
         budgetary functions and terminology and meet regularly with OASAM budget
         personnel to review budget reports.

   -     Ensures ILAB personnel work with OASAM and OCFO personnel to define
         ILAB object class details needed in program and project management.

   -     Ensures ILAB personnel are familiar with and consistently include proper
         coding on all obligations, invoices and other documentation used by OASAM in
         their data input.
   -     Ensures appropriate ILAB personnel work with OASAM budget personnel to
         update the Memorandum of Understanding between the two agencies in regard
         to the roles and responsibilities for budget activity recording and reporting.


USDOL/OIG Audit Report No. 21-03-002-01-070                                            12
ILAB Followup Report



Agency Response

ILAB has met with OASAM to establish a regular meeting schedule and develop
procedures that will provide the detailed information needed to track budgetary and other
financial information throughout the year.

Auditor Conclusion

We agree with the ILAB’s response and consider the finding resolved. To close the
finding, ILAB needs to provide OIG with proof that the new procedures have been
implemented.

3. Two -Year Funding Authority For The Child Labor And Office Of Foreign
Relations Program Would Provide For Better Control

As of July 2002, 2 months before the end of the fiscal year, ICLP had not obligated: (1)
$39 million of its FY 2002 CL appropriation, which is earmarked for the ILO (these
funds have a 1-year obligation authority ending September 30, 2002), and (2) $11 million
of its FY 2001 Child Labor Education Initiative appropriation, and any of its $37 million
FY 2002 Child Labor Education Initiative appropriation (these funds have a 2- year
obligation authority expiring September 30, 2002, and 2003, respectively). At the same
time, for its FY 2002 appropriation, OFR had not obligated: (1) $27 million of its
bilateral and multilateral funds, (2) $4.9 million of its monitoring funds, and (3) $9.9
million of its HIV-AIDS funds (these funds have a 1-year obligation authority ending
September 30, 2002). The following schedule illustrates the funds available:
                                             ICLP Budget
                                            (In Thousands)
                                                    2001                              2002
  Child Labor                                      To Be                                    To Be
  Program              Budgeted       Obligated Obligated       Budgeted      Obligated    Obligated

  ILO/IPEC                 $45,000       $45,000      $     0      $45,000       $5,861      $39,139 2/
  EI 1/                     37,000        26,000   11,000 2/         37,000           0         37,000
  Total                    $82,000       $71,000     $11,000       $82,000       $5,861        $76,139

  OFR Programs

  Multilateral             $20,000       $20,000          $0       $20,000         $386        $19,614
  Bilateral                 17,000,       17,000          $0         17,000        9,029         7,971
  Monitoring                  4,500        4,500          $0          5,000         100          4,900
  HIV – AIDS                10,000        10,000          $0        10,000          100          9,900
  Total                    $51,500       $51,500          $0       $52,000       $9,615        $42,385

1/ - 2 year obligation authority
2/ - Provided a plan by project to obligate funds by September 30, 2002.



USDOL/OIG Audit Report No. 21-03-002-01-070                                                               13
ILAB Followup Report

We found that ILAB’s FY 2002 appropriation was not available until January 2002, and
the amount was more than double the request in the President’s budget. In order to
adequately plan and fund their programs, ICLP and OFR need to coordinate with other
groups, such as officials of foreign countries, other U.S. government agencies, and
DOL’s Procurement and Accounting Offices. In addition, ICLP leverages its resources
by consulting with other U.S. government agencies with expertise in operating aid
programs in other countries. Consideration must also be given as to how well the U.S.
embassies in countries being targeted will support the initiative.

Currently, EI has 2-year obligation authority, and IPEC and OFR have 1-year obligation
authority. DOL/ICLP and ILO/IPEC and OFR’s process for designing and funding
quality projects has been a time-consuming effort of performing needs assessments,
baseline surveys and consultations with interested parties.

In FY 2002 ICLP and IPEC improved the design process by requiring that a Strategic
Program Impact Framework (SPIF) be developed for all new projects to further ensure
that projects are properly planned and developed. This process maps out the cause and
effect links of interventions to the anticipated results. For example, interventions such as
awareness raising, education and vocational training, income generation, and monitoring
are linked to the prevention and elimination of child labor. The process allows IPEC to
build relationships with other international organizations to accomplish the project’s
objective. This should result in a cost savings and avoid duplication of efforts, but it is a
lengthy process.

OFR’s timeline for selecting a project, designing the project and obligating the funds can
take up to 12 months. OFR must first consult extensively with U.S. Government partners
and foreign stakeholders on how to best program its technical assistance funds. Once the
countries are selected OFR travels to each country to verify the need for the assistance
and to design the project in partnership with the country. OFR must then compete the
project and award the contract before the project activities begin. These phases contain
three to four steps each, such as performing research and needs assessments, consulting
and designing the project, negotiating and gaining the host countries acceptance,
developing the statement of work, announcing the competition, and awarding the
contract. Designing quality projects and obligating the funds within a fiscal year can be
extremely difficult.

OFR is also required to send International Specialists overseas to monitor ILAB
resources and projects. This process of obtaining State Department approval for the
position, recruiting the personnel, obtaining medical and security clearances, and moving
the individual(s) is a lengthy one.

Considering the additional work undertaken by ILO and ILAB (ICLP and OFR), and the
coordination required with other international aid agencies, 2- year obligatio nal authority
would facilitate ILAB’s planning and procurement process.




USDOL/OIG Audit Report No. 21-03-002-01-070                                                14
ILAB Followup Report

Recommendation

We recommend that ILAB seek 2-year funding authority for all technical assistance
programs.

Agency Response

ILAB agreed with the need for 2-year funding and intends to address this issue in the
coming year.

Auditor Conclusion

We agree with the ILAB’s response and consider the finding resolved. To close the
finding, ILAB needs to provide OIG with proof that 2-year funding authority has been
implemented




USDOL/OIG Audit Report No. 21-03-002-01-070                                             15
ILAB Followup Report

II.       STATUS OF EVALUATION RECOMMENDATIONS

ILAB has addressed the five recommendations in Evaluation Report No. 2E-01-070-
0001, Evaluation of Program Implementation of ILAB’s Child Labor Projects FYs 1995-
2000, issued September 28, 2000.

All five recommendations are closed.

1.        Project Planning

According to the evaluation report, ICLP funded and implemented child labor elimination
projects without first identifying the specific needs and requirements of the target
populations.

      The evaluators recommend that ICLP adopt a two-stage funding process, and

         1.   Fund and conduct a needs and requirements assessment of the target
              population.

         2.   Use the information from the needs and requirements assessment to determine
              appropriate funding for implementation of the child labor elimination project.

We found that ICLP and the IPEC are continually gathering data from research and
baseline studies on child labor issues throughout the world. These studies have produced
a significant amount of information about CL abuses and the information is used for
determining which countries to target and what industries to educate. We found that the
five CL projects in our sample were adequately planned using a multistage process.
Some examples follow.

The need for a $3,795,285 IPEC CL project, which was approved by ICLP in June 2002,
“Stop the Exploitation” Contribution to the Prevention and Elimination of Commercial
Sexual Exploitation of Children (CSEC) in Central America, Panama and the Dominican
Republic, was established by studies conducted in 2001.

Annually ILAB consolidates the data it has gathered on child labor and issues a report to
Congress. The most recent report, consisting of 386 pages, was issued in July 2002. This
report described the nature and extent of child labor in 143 countries and territories, the
laws and enforcement policies that exist to protect children, and efforts that have been
made by governments to meet international commitments to eliminate the worst forms of
child labor. The information in this report is used for developing projects.

In addition, in April 2002 ICLP approved $1.5 million for preparatory work, such as
surveys and studies, in six countries in which ICLP planned to fund projects in FY 2003.
In April 2002, ILO/IPEC published, “Every Child Counts: New Global Estimates on
Child Labour,” which provided updated statistical information on CL from several
different perspectives.


USDOL/OIG Audit Report No. 21-03-002-01-070                                              16
ILAB Followup Report

ICLP’s operations manual requires that before project consideration a needs assessment
must be performed to collect information and determine the socio-economic situation of
the country and the problems and needs to be addressed by the project. It is this
information ILAB relies upon to determine which projects should be funded by ICLP
each year. When baseline data on the target population is not already available, the
information is collected before the project is fully funded.

Conclusion

Since the five CL projects in our sample were adequately planned using a multistage
process, the recommendation is closed.

2.      Project Goals, Objectives and Indicators

According to the evaluation report, the review of a sample of ICLP’s projects
implemented during the period FYs 1995 through 1999 disclosed that, in many instances,
the goals, objectives and indicators were not specific nor were they adequately defined.
As a result, it was difficult to comprehensively assess the benefits or outcomes.

     The evaluators recommend that ICLP ensure that specific, well-defined outcome-
     oriented goals, objectives and indicators are developed and included for each
     project proposal.

Based on analysis of the five CL projects in our sample, we determined that the project
goals, objectives, and indicators developed by ICLP are outcome-based and in
compliance with GPRA. The project planning documents for the five CL projects
contained a matrix that laid out development objectives, immediate objectives, outputs,
indicators, and activities. The development objective for each project was to contribute
to the prevention and elimination of child labor. The development objectives
corresponded to the overall goal in DOL’s strategic plan, which was to reduce
exploitative child labor.

For example, the development objective in the project planning document for a recent
ICLP project was, “To contribute to the prevention and eradication of commercial sexual
exploitation of children in Central America, Panama and the Dominican Republic.” The
objective was to assist seven countries in developing systems, on a regional basis, that
would prevent and eradicate CL. The immedia te objectives were to develop:

     Regional cooperation and shared knowledge to prevent and eradicate CSEC in
     the region.

     National legislation policies and programs and ensure they are in effect in
     selected countries.

     Increased community and individual action to prevent commercial sexual
     exploitation of children and assist victims of CSEC throughout the region.


USDOL/OIG Audit Report No. 21-03-002-01-070                                            17
ILAB Followup Report



The project planning document also listed outputs and indicators that would assist the
seven countries in establishing the needed systems. In addition, the agreements for all
ICLP projects contain a provision for a mid-term evaluation and a final evaluation of the
project.

Conclusion

Based on our determination that the project goals, objectives, and indicators developed by
ICLP are outcome-based and in compliance with GPRA, the recommendation is closed.


3.      Project Inspection Allegations

According to the evaluation report, there was little information in the project files
documenting the steps taken by ICLP in response to the allegations.

     The evaluators recommended that ICLP:

        (a)   Thoroughly investigate and Followup on all serious allegations.

        (b)   Implement any appropriate correction actions.

        (c)   Adequately document steps taken.

We found that ICLP has developed a sound methodology for handling any observations/
reports/allegations made about abusive child labor, as well as written procedures for
responding to allegations about specific projects.

Some of the observations/reports/allegations are about a specific project, and some are
not. Allegations received about specific projects funded by ICLP are processed in
accordance with the written procedures. ICLP determines if they are credible, and how
they should be handled. According to ICLP management, allegations about specific
projects are not common.

ICLP receives observations/reports/allegations about abusive child labor from various
sources (e.g., from media reports, U.S. embassy reports, non- governmental organizations,
etc.). For those observations /reports/ allegations that are considered significant, and are
not related to a specific project, ICLP will either (1) include the information provided as
part of the research ICLP does for its yearly report on child labor; (2) followup in
accordance with Presidential Executive Order 13126, if the report is about forced or
indentured child labor relating to a specific country and product; or (3) use the
information as a basis for funding future child labor projects.




USDOL/OIG Audit Report No. 21-03-002-01-070                                               18
ILAB Followup Report

Conclusion

Since allegations are processed in accordance with written procedures, the
recommendation is closed.

4.       Project Sustainability

According to the evaluation report, ICLP does a good job in delineating the roles of its
partners in attempting to achieve project sustainability. However, ICLP can go a step
further by obtaining written agreements from its project partners, which would only
enhance the probability that the partners will uphold their responsibilities.

     The evaluators recommended that ICLP obtain written agreements from project
     partners, which clearly delineate each partner’s role incapacity building and project
     sustainability.

Sustainability is addressed in ICLP’s operations manual. The manual states, “The ILO
and its project implementing partners sign an Agreement that clearly delineates each
partner’s role in capacity building and project sustainability.” In addition, ICLP’s
operations manual states that sustainability will be addressed in the design phase of
projects and in evaluations. We found that CL projects now contain written agreements
describing each partner’s role in capacity building and project sustainability.

The project planning document for one of ICLP’s more recent projects, “Preventing and
Eliminating Child Labor in Identified Hazardous Sectors,” a project which was funded
for $7 million in FY 2001 in India, contained procedures and measures to put into place
policies, legal frameworks, and anti-poverty programs to be undertaken by the
government independent of the project.

Sustainability was also a major focus in a recent $3,795,285 CL project approved by
ICLP in June 2002 (“‘Stop the Exploitation’ Contribution to the Prevention and
Elimination of Commercial Sexual Exploitation of Children in Central America, Panama
and the Dominican Republic.”).

Conclusion

Based on our determination that CL projects now contain written agreements describing
each partner’s role in capacity building and project sustainability, the recommendation is
closed.




USDOL/OIG Audit Report No. 21-03-002-01-070                                                19
ILAB Followup Report



5.       Review of Project Documents

According to the evaluation report, ICLP officials provided a copy of draft General
Guidelines for Review of Project Documents. The purpose was to provide criteria for
ICLP staff use in their review of project documents.

     The evaluators recommended that ICLP expand and strengthen the draft General
     Guidelines into an operations manual for staff use.

ICLP has developed an operations manual based on the Draft Guidelines for staff use that
the audit team found to be a very useful guide while becoming familiar with
documentation of CL projects. The guide is specific, thorough, logical, and easy to
follow.

Conclusion

Based on ILAB’s issuance of an effective operations manual, the recommendation is
closed.




USDOL/OIG Audit Report No. 21-03-002-01-070                                           20
ILAB Followup Report



                                         ILAB’S BUDGET
                                        FY 2000 TO FY 2003


                                                                                             Proposed
              Budget                        2000            2001             2002              2003

International Child Labor Program (ICLP)

   Child Labor (ILO)                       $30,000,000     $45,000,000      $45,000,000          $30,000,00
   Education Initiative (Bilateral)                  0      37,000,000       37,000,000                0.00

                            Sub-total      $30,000,000     $82,000,000      $82,000,000      $30,000,000

Office of Foreign Relations (OFR)

   Labor Standard (Multilateral)           $20,000,000     $20,000,000      $20,000,000      $         0.00
                 (Bilateral)                10,000,000      17,000,000       17,000,000          10,000,000

                            Sub-total      $30,000,000     $37,000,000      $37,000,000      $10,000,000

ILAB Monitoring (OFR)                       $1,000,000      $4,500,000       $5,000,000               $0.00

HIV-AIDS (OFR)                                     $0      $10,000,000      $10,000,000               $0.00

University of Iowa                                 $0           $900,000          $300,000            $0.00

Association of Farmworker
Opportunities Program                              $0           $250,000               $0             $0.00

Salaries and Misc.                          $9,000,000     $13,332,000      $13,982,000      $14,600,000

                                Total      $70,000,000    $147,982,000     $148,282,000      $54,600,000




                         ILAB AUTHORIZED STAFFING LEVELS

                                                                            Over/
                      Fiscal             FTE                               Under
                       Year           Authorized         Employed          Ceiling
                       2000               85               90                5
                       2001              125               96               <29>
                       2002              125               96               <29>
                       2003
                     Proposed              85               -                 -




USDOL/OIG Audit Report No. 21-03-002-01-070                                                             21
ILAB Followup Report




USDOL/OIG Audit Report No. 21-03-002-01-070   22
